Department of Homeland Security
   Ofﬁce of Inspector General
               Evaluation of DHS' Security 

              Program and Practices For Its 

       Intelligence Systems For Fiscal Year 2010 


                Unclassified Summary 





OIG-10-112                                   August 2010
                                                                      U.S. Department of

                                                                      Homeland Security

                                                                      Washington, DC 20528




                              Office of Inspector General
               Evaluation of DHS’ Security Program and Practices for Its
                     Intelligence Systems for Fiscal Year 2010
                                    OIG-10-112


We reviewed the Department of Homeland Security’s (DHS) enterprise-wide security
program and practices for its Top Secret/Sensitive Compartmented Information
intelligence systems. Pursuant to the Federal Information Security Management Act of
2002 (FISMA), we reviewed the department’s security management, implementation, and
evaluation of its intelligence activities, including its policies, procedures, and system
security controls for enterprise-wide intelligence systems. In doing so, we assessed the
department’s Plan of Action and Milestones, certification and accreditation, privacy, and
incident reporting processes, as well as its security training and awareness program.

The department continues to maintain an effective enterprise-wide information security
management program for its intelligence systems. Overall, DHS has developed
information security procedures and implemented effective security controls on its
intelligence systems. Nonetheless, management oversight and operational issues remain
regarding the effectiveness of the program. Concerns with system Certification and
Accreditation documentation and the implementation of a formal information system
security training and awareness program for intelligence personnel still exist. Further,
because the Intelligence and Analysis Office is now responsible for the U.S. Coast Guard
intelligence systems reporting, the office should continue to provide management
oversight to ensure that the U.S. Coast Guard maintains an effective information
technology security program and complies with FISMA and DHS requirements.
Fieldwork was conducted from April through June 2010.
(OIG-10-112, August 2010, IT)
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
